APPENDIX
Appendix Item I
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
ORDER
August 20, 2021
Before
Diane P. Wood, Circuit Judge
David F. Hamilton, Circuit Judge
Amy J. St. Eve, Circuit Judge
The following are before the Court:
Petition for Writ of Mandamus, filed on
1.
August 17, 2021, by (sic) counsel for the peti­
tioners.
2.
Letter, filed on August 19, 2021, by (sic)
counsel for the petitioners.
It is ordered that the petition for writ of mandamus
is denied.

la

Appendix Item II
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN

WILLIAM J FRENCH,
SANDRA M FRENCH,
Plaintiffs,
Case No. 20-cv-1090 bhl v.
NORTHWESTERN MUTUAL LIFE
INSURANCE COMPANY,
NORTHWESTERN LONG TERM CARE
INSURANCE CO,
Defendants.

ORDER
On November 11, 2020, Defendants filed a mo­
tion for judgment on the pleadings. (ECFNo. 23.) At
a November 19, 2020, scheduling conference, the
Court set a schedule for briefing and oral argument
on the motion and the parties confirmed their agree­
ment not to proceed with discovery pending resolution
of defendants’ motion. (ECF No. 27.) The motion for
judgment on the pleadings has been fully briefed since
April 2, 2021. (See ECF No. 36.) Oral argument was
cancelled after plaintiffs’ former counsel withdrew.
(ECF No. 31.) Given the agreed upon schedule, the
Court has not entered a scheduling order.
2a

Since their counsel withdrew, plaintiffs have,
without counsel, filed five different motions for full or
partial summary judgment. (ECF Nos. 37, 39, 42, 44,
& 45.) On July 21, 2021, defendants filed an expe­
dited motion to hold plaintiffs’ motion(s) for partial
summary judgment in abeyance. (ECF No. 48.) The
defendants indicate the motion is opposed.
After reviewing the record of the case and de­
fendants’ expedited motion, the Court will grant the
defendants’ request for a stay. This case should pro­
ceed in an orderly and logical way, consistent with the
parties’ discussion at the scheduling conference. Ac­
cordingly, the Court will also deny the plaintiffs’ mo­
tions for partial summary judgment without preju­
dice. Those motions are premature at this point.
Summary judgment may be appropriate in this case,
but only after the motion for judgment on the plead­
ings has been resolved. Should the case survive judg­
ment on the pleadings, the Court will set a schedule
and allow plaintiffs to refile their motion for summary
judgment in accordance with the Local Rules. Accord­
ingly,
IT IS HEREBY ORDERED that defendants’
motion, ECF No. 48, is GRANTED, this case is
STAYED, and the motion for judgment on the plead­
ings, ECF No. 23, is taken under advisement. The
parties are directed to halt any litigation of this mat­
ter until the Court has rendered a decision on the mo­
tion for judgment on the pleadings.
IT IS FURTHER ORDERED that the plaintiffs’
motions for summary judgment, ECF Nos. 42, 44, and
45, are DENIED without prejudice. Plaintiffs will be
3a

allowed to refile their motions at a later date, if ap­
propriate.
Dated at Milwaukee, Wisconsin on July 23,
2021.
s/ Brett H. Ludwig
BRETT H. LUDWIG United
States District Judge

4a

i

